Audit Report 98-17
Federal Bureau of Investigation
Annual Financial Statement
Fiscal Year 1997
Audit Report 98-17, (7/98)
TABLE OF CONTENTS
OFFICE OF THE INSPECTOR GENERAL COMMENTARY AND SUMMARY
MESSAGE FROM THE CHIEF FINANCIAL OFFICER
MANAGEMENT'S OVERVIEW
INDEPENDENT AUDITORS' REPORT ON FINANCIAL STATEMENTS
INDEPENDENT AUDITORS' REPORT ON INTERNAL CONTROL OVER FINANCIAL
REPORTING
EXHIBIT I: MATERIAL WEAKNESSES
EXHIBIT II: REPORTABLE CONDITIONS
EXHIBIT III: STATUS OF PRIOR YEAR'S RECOMMENDATIONS
INDEPENDENT AUDITORS' REPORT ON COMPLIANCE WITH LAWS AND
REGULATIONS
PRINCIPAL FINANCIAL STATEMENTS
STATEMENT OF FINANCIAL POSITION
STATEMENT OF OPERATIONS AND CHANGES IN NET POSITION
NOTES TO THE FINANCIAL STATEMENTS
SUPPLEMENTAL FINANCIAL AND MANAGEMENT INFORMATION
APPENDIX - AUDIT DIVISION ANALYSIS AND SUMMARY OF
ACTIONS NECESSARY TO CLOSE THE REPORT
OFFICE OF THE INSPECTOR GENERAL
COMMENTARY AND SUMMARY
The Federal Bureau of Investigation (FBI) is the principal investigative arm of the
U.S. Department of Justice. Its' mission is very diverse, and the FBI presently has
investigative jurisdiction over violations of more than 200 categories of federal crimes.
To achieve their mission, the FBI received $2.8 billion in direct appropriations for FY
1997. Reimbursable funding levels, totaling about $451 million, provided them with the
resources to participate in several joint-agency enforcement efforts, including Organized
Crime Drug Enforcement Task Forces, Regional Drug Intelligence Squads, and the Asset
Forfeiture Program. The FBI also offers cooperative services such as fingerprint
identification, laboratory examination, police training, Uniform Crime Reports, and the
National Crime Information Center to duly authorized law enforcement agencies.
This audit report contains the Annual Financial Statement of the FBI for the fiscal
year ended September 30, 1997. The audit was performed by KPMG Peat Marwick LLP, and
resulted in a qualified opinion on the Statement of Financial Position and the Statement
of Operations and Changes in Net Position. The qualifications were a result of the
following:
The FBI did not have an adequate financial system to report the number and value of
items seized for evidentiary purposes as required by Federal Accounting Standards.
The FBI was unable to substantiate the undelivered orders component of net position, as
reported in the Statement of Financial Position.
The FBI also received a qualified opinion on its Statement of Financial Position for FY
1996 (OIG Report 97-29A). The auditors were not contracted to audit the Statement of
Operations and Changes in Net Position in that first-year audit. Weaknesses identified in
the FY 1996 audit pertaining to completeness of assets seized for forfeiture and the
proper recording of accounts receivable and capital leases were resolved; however, issues
related to accounts payable continued to be identified as a reportable condition. A
summary of findings noted in the FY 1996 audit and their status can be found in the
accompanying report.
Management's Overview
Background, Mission, and Goals
The agency now known as the Federal Bureau of Investigation (FBI) was founded in 1908
when Attorney General Charles J. Bonaparte appointed an unnamed force of Special Agents to
be the investigative force of the Department of Justice (DOJ). Prior to that time, DOJ
borrowed Agents from the Secret Service to investigate violations of federal criminal laws
within its jurisdiction.
The FBI is the principal investigative arm of the DOJ. At present, the Bureau has
investigative jurisdiction over violations of more than 200 categories of federal law.
The FBI's basic authority is drawn from Title 28, U. S. Code, Section 533, which
authorizes the Attorney General to "appoint officials to detect...crimes against the
United States." It is pursuant to this clause that the FBI performs most of its
work--namely, investigating persons or incidents when there is reason to believe that a
federal crime has been or is likely to be committed. While this provision of the statute
assigns to the Bureau general investigative authority over criminal violations, there are
other statutes, such as the Congressional Assassination, Kidnapping, and Assault Act
(Title 18, U. S. Code, Section 351), which give the Bureau responsibility to investigate
specific crimes. On January 28, 1982, the Attorney General assigned concurrent
jurisdiction for the enforcement of the Controlled Substances Act to the FBI and Drug
Enforcement Administration (DEA).
Priority has been assigned to the five areas that affect society the most:
counterterrorism, foreign counterintelligence, organized crime/drugs, violent crimes, and
white-collar crime. The FBI is also authorized to provide cooperative services to law
enforcement agencies, such as fingerprint identification, laboratory examinations, police
training, Uniform Crime Reports, and the National Crime Information Center.
The Mission of the FBI is to uphold the law through the investigation of violations of
federal criminal law; to protect the United States from foreign intelligence and terrorist
activities; to provide leadership and law enforcement assistance to federal, state, local,
and international agencies; and to perform these responsibilities in a manner that is
responsive to the needs of the public and is faithful to the Constitution of the United
States.
The general goals of the FBI are to:
Investigate violations of the laws of the United States within FBI jurisdiction and
collect evidence in domestic and international cases in which the United States is or may
be a party of interest.
Collect, analyze, and exploit information to identify and neutralize the activities of
foreign powers and their agents, and domestic entities, that adversely affect the United
States' national security through counterintelligence, counterterrorism, and security
countermeasures investigations.
Provide forensic, identification, information, and training services external to the
FBI.
Provide effectively and efficiently those supporting services necessary to the
accomplishment of the FBI mission.
Provide effective national and organizational leadership, as well as, effective
direction, control, and administration of resources.
Organization
The FBI is a field-oriented organization in which nine divisions and four offices at
FBI Headquarters (FBIHQ) in Washington, D.C., provide program direction and support
services to 56 field offices, approximately 400 satellite offices known as resident
agencies, four specialized field installations, and 32 foreign liaison posts. (See FBI Organization
Chart in the Supplemental Financial and Management Information section). The foreign
liaison offices, each of which is headed by a Legal Attaché or Legal Liaison Officer,
work with American and local authorities on criminal matters within FBI jurisdiction.
As of September 30, 1997, the FBI had approximately 11,300 Special Agents and 16,000
other employees who perform professional, administrative, technical, clerical, craft,
trade, or maintenance duties or functions.
FBI field offices are located in 56 major cities. Of those, 55 are in the United
States, and one is located in Puerto Rico. Each FBI field office is overseen by a Special
Agent in Charge (SAC) except for those located in Los Angeles, New York City and
Washington, D.C. Due to their large size, those offices are each managed by an Assistant
Director in Charge (ADIC).
The FBI also operates specialized field installations: two Regional Computer Support
Centers; and two Information Technology Centers (ITCs). The ITCs provide information
services to support field investigative and administrative operations.
The Critical Incident Response Group (CIRG) was established in 1994 to address crisis
situations requiring an emergency response by a diverse group of law enforcement
resources.
Budget Resources and Accomplishments
The FBI is provided direct budget authority through the Salaries and Expenses
(S&E), Violent Crime Reduction Program, Construction, and Telecommunications Carrier
Compliance Fund appropriations. The FBI is also provided significant levels of budget
authority through reimbursable funding.
For FY 1997, the FBI's enacted level included $2,841,136,000 in direct appropriated
funding, based on the following appropriations:
Salaries and Expenses
$2,570,497,000
Violent Crime Reduction Program
$169,000,000
Construction
$41,639,000
Telephone Carrier Compliance
$60,000,000
FY 1997 Direct Appropriated Funding
$2,841,136,000
(Also see FY 1997 budget chart in the Supplemental Financial and
Management Information section).
The FBI also anticipated approximately $451 million in reimbursable funding.
Reimbursable funding is received from a number of sources, e.g., Organized Crime Drug
Enforcement Task Force (over $100 million), Health Care Fraud (over $50 million), Asset
Forfeiture Fund (approximately $28 million), and federal and non-federal user fees (over
$100 million).
Accomplishments
It should be noted that many critical investigations were conducted during FY 1997,
such as those relating to the Oklahoma City bombing, TWA Flight 800, Centennial Olympic
Park bombing, apprehension of Mir Aimal Kansi and the UNABOM case. Additionally, other
significant investigative results were achieved in the programs addressing terrorism,
organized crime, drugs, white-collar crime, violent crime, gangs and juvenile crime,
sexual exploitation of children, hate crimes, and foreign counterintelligence.
Investigative Accomplishments
Oklahoma City Bombing
On April 19, 1995, the Murrah Federal Building in Oklahoma City was destroyed by a bomb
blast which took the lives of 168 innocent men, women, and children, and wounded over 700
others. On August 10, 1995, Timothy J. McVeigh and Terry Lynn Nichols were indicted by a
federal grand jury in Oklahoma City, charging them with conspiracy to use a weapon of mass
destruction, use of a weapon of mass destruction, destruction by explosive, and eight
counts of first degree murder. On Friday, June 13, 1997, Timothy McVeigh was sentenced to
death after having been found guilty on all counts.
TWA Flight 800
On the evening of Wednesday, July 17, 1996, TWA Flight 800, carrying 213 passengers and
17 crew members, exploded and crashed into the Atlantic Ocean off the coast of Long Island
shortly after taking off from New York City's John F. Kennedy International Airport en
route to Paris. There were no survivors. The FBI recently announced that no evidence was
found to indicate that the crash was the result of a criminal act.
Centennial Olympic Park Bombing.
Early on Saturday morning, July 27, 1996, a very large pipe bomb exploded in Centennial
Olympic Park, downtown Atlanta, Georgia. The bomb sprayed shrapnel that killed one person,
caused one fatal heart attack, and injured 112 others. The investigation continues.
Mir Aimal Kansi.
On January 25, 1993, a shooting spree outside CIA headquarters in McLean, Virginia,
resulted in the killing of two CIA workers and the wounding of three other people. The
suspect, Mir Aimal Kansi, was captured in June by the FBI after a four-year manhunt.
UNABOM
UNABOM (for University and Airline Bombing) is the code name for the FBI's
investigation of 16 improvised explosive devices which were mailed or placed during a
17-year period beginning on May 25, 1978, and which resulted in three deaths and injuries
to 23 people throughout the United States. On June 18, 1996, the federal grand jury
sitting in Sacramento, California returned a ten-count indictment, charging Theodore J.
Kaczynski with four bombings that killed two individuals and injured two others. On
October 1, 1996, the federal grand jury sitting in the District of New Jersey returned a
three-count indictment, charging Kaczynski with a bombing that killed one individual.
Espionage
On March 3, 1997, Harold James Nicholson pleaded guilty to one count of espionage and
conspiracy to commit espionage. Nicholson was a CIA officer who volunteered to the Russian
Civilian Intelligence Service (SVRR) in Kuala Lampur, Malaysia, in 1994, and is the
highest ranking CIA employee to be caught spying. Nicholson was sentenced on June 5, 1997,
to serve 23 years and seven months in prison.
On June 23, 1997, Earl Edwin Pitts was sentenced to serve 27 years in federal prison.
Pitts was an FBI Special Agent who volunteered information to the Soviet Committee for
State Security (KGB) in New York. He provided classified information to the Russians from
1987 until 1992. Later, he attempted to provide classified information to the Russians
during an FBI undercover operation.
Terrorism Prevention
FBI Dallas received information that two members and two associates of the True Knights
of the Ku Klux Klan were planning to commit acts of terrorism in several areas of Wise
County, Texas. The four subjects planned to commit an armored car robbery, which would
have involved the detonation of diversionary bombs at a natural gas processing/storage
facility, which they believed contained lethal gases. As a result of this investigation,
all four subjects were arrested and four terrorist acts were prevented.
In October 1996, seven members of the Mountaineer Militia were indicted and arrested.
The subjects were planning to bomb the FBI's Criminal Justice Information Services (CJIS)
facility in Clarksburg, West Virginia. An FBI undercover agent had posed as an
intermediary for a Middle East terrorist organization and offered to pay the subjects
$50,000 for blueprints of the FBI building. Upon delivery of the blueprints, the subjects
were arrested.
Innocent Images
While investigating the disappearance of a minor, FBI Agents and Prince George's
County, Maryland, police detectives identified two suspects who had sexually exploited
numerous juvenile males over a 25-year period. Investigation into the activities of these
two suspects disclosed that both adults and juveniles are routinely using computers to
transmit sexual images of minors, as well as to lure minors into engaging in illicit
sexual activity with the suspects. This investigation led to the initiation of the FBI
investigation code named "Innocent Images" and the formation of a multi-agency
task force which focuses on the identification and development of evidence to support the
prosecution of individuals who use computer telecommunications facilities to receive or
distribute child pornography. The task force also focuses on those who use such technology
to recruit minors into illicit sexual relationships.
"Innocent Images" investigative operations produced the following results
during FY 1997: 14 "consent" searches; 86 search warrants; 51 arrests; 61 grand
jury indictments; 25 informations (i.e., non-grand jury indictments); and 70 convictions.
A high priority was placed on investigating cases involving interstate computer
communications and travel for the recruitment of minors for illicit sexual relationships.
There were 61 "traveler" investigations initiated and coordinated during FY
1997.
International Law Enforcement
The FBI believes it is essential to station agent and support staff in other countries
to prevent foreign terrorism and foreign crime from reaching the United States. These
employees work closely with authorities of host countries to build "cop-to-cop"
bridges that help all law abiding societies to develop cooperative efforts that better
protect their people and our people. As a result of trust developed through the ongoing
work of the legal attaches, the FBI recently conducted an 18-month investigation into a
conspiracy with links to Colombian, Italian, and United States criminal organizations. The
scheme involved exportation of cocaine from Latin America to Europe, where it was
exchanged for heroin that was imported into the United States. Over 107 persons were
arrested, of which 43 were convicted.
Investigative Support and Other Accomplishments
Telecommunications Carrier Compliance
The Communications Assistance for Law Enforcement Act (CALEA) (P.L. 103-414) clarified
the duty of the telecommunication carriers to assist law enforcement agencies with the
lawful interception of communications and the collection of call-identifying information
in a rapidly changing telecommunications environment. This legislation was necessitated by
the erosion of law enforcement interception abilities and the frustration of carrying out
court orders for electronic surveillance as a result of the deployment of advanced
telecommunications technologies. Electronic surveillance is a critical tool used by
Federal, State and local law enforcement agencies in the investigation of kidnappings,
extortions, murder, illegal drug trafficking, major white-collar crimes, organized crime,
terrorism, and national security matters. During the past 14 years, evidence obtained from
court-authorized interceptions has been directly responsible for convicting 26,000
dangerous felons. In 1997, the Attorney General submitted to Congress a CALEA
Implementation Plan that identified priority telephone switching platforms and established
a process for the development of CALEA solutions.
Construction
FBI Laboratory. Construction of the new FBI Laboratory began in the Fall of
1997. The estimated construction cost of the new laboratory is $130 million. The current
laboratory is one of the largest and most comprehensive crime laboratories in the world.
It provides leadership and service in the scientific solution and prosecution of crimes
throughout the United States and is the only full-service federal forensic laboratory. The
FBI is in the process of applying for accreditation of the FBI Laboratory by the American
Society of Crime Laboratory Directors.
The FBI has undertaken a major initiative to relocate the FBI Laboratory from the FBI
Headquarters Building in Washington, D.C., to a new, stand-alone facility on the campus of
the FBI Academy, Quantico, Virginia. Relocation is necessary due to safety, health, and
environmental concerns of operating the current laboratory in a densely populated office
building and the need to provide additional space to accommodate the integration of new
forensic examination techniques and technologies. Phased occupancy of the new FBI
laboratory is planned for the Summer/Fall of 2000.
Criminal Justice Information Services (CJIS) Facility. In 1990, the FBI
initiated the Relocation and Revitalization Project to improve its fingerprint
identification and related services provided to the Nation's criminal justice community in
response to the demands for these services. As a result of this initiative, the Congress
appropriated $185 million in the Dire Emergency Supplemental Appropriations Act of 1990
for the construction of a new fingerprint identification facility.
The CJIS Division Complex was built in Clarksburg, West Virginia, and opened in August
1995. The West Virginia facility includes 986 acres, three miles of roads, parking for
over 2,000 vehicles, underground utilities, and nine buildings, providing over 781,000
square feet for offices, storage, and infrastructure activities. The Opening Ceremony for
the CJIS Division's Main Office Building was held on May 29, 1997.
Combined DNA Index System (CODIS)
The FBI developed CODIS to function as a national DNA database system containing
indices of DNA profiles from convicted offenders and unsolved crime scenes. DNA testing is
provided free of charge to any law enforcement agency in the United States.
As of September 30, 1997, there were 78 CODIS sites in 36 states and the District of
Columbia.
DRUGFIRE
DRUGFIRE is a computer database system which allows laboratories within a region or
large metropolitan area to exchange and compare images of firearms evidence (i.e., bullets
and cartridge cases). Nationwide, over 35,000 criminal investigations represented by over
60,000 images have been entered in DRUGFIRE. DRUGFIRE has linked nearly 1,400 pairs of
cartridge cases, matching one of every eight cartridge cases entered from crime scenes and
providing police with investigative leads that would otherwise have gone undetected. As of
September 30, 1997, there were 84 DRUGFIRE sites within the United States, with another 70
laboratories expected to install DRUGFIRE by the end of fiscal year 1998.
Integrated Automated Fingerprint Identification System (IAFIS)
The FBI is developing IAFIS, which will completely replace the existing fingerprint
identification system and improve processing capabilities and turnaround time. The IAFIS
will be a rapid response, paperless system that will receive and process electronic
images, criminal histories, and related identification data for the entire criminal
justice community. IAFIS is designed to process an average volume of 62,000 fingerprint
records per day within two to 24 hours. The cost estimate for IAFIS is $640 million, and
complete IAFIS functionality is projected for July 1999.
National Crime Information Center (NCIC)
In 1967, the FBI established the NCIC as a nationwide database containing data and
information files, such as wanted and missing persons, foreign fugitives, unidentified
persons, and stolen property. The NCIC system contains over 32 million records stored in
18 information databases, and is accessed by 79,000 authorized users. The system is
accessed almost 2 million times daily by law enforcement officers inquiring about the
status of several "hot" files. The current NCIC system will be replaced by the
NCIC 2000 system. The new system will provide additional functionalities, such as mug
shots and fingerprint matching, to serve the criminal justice community into the
twenty-first century. The initial operating capability is anticipated for July 1999.
The current estimate to complete the NCIC 2000 initiative is $183.2 million.
FBI Home Page
Recognizing the tremendous growth of public information available through the Internet,
in 1995 the FBI established a Home Page on the World Wide Web at: http://www.fbi.gov. The
site features general information about the FBI and some of its major programs and
initiatives. It also includes major speeches, congressional testimony, press releases,
fugitive publicity, and crime statistics.
Financial Improvements
The FBI is committed to a process of continually evaluating, streamlining and improving
its financial processes. In prior years the FBI contracted with outside firms to evaluate
its process of preparing financial reports, including financial statements for audit.
Operational improvements are also being made in response to the findings and
recommendations made incident to the first CFO Act audit of the FBI's financial
statements.
The FBI is currently reformulating its strategic plan, and new performance measurements
will be developed and subsumed within the strategic plan. In this regard, the FBI
continued to aggressively implement the requirements of the Government Performance and
Results Act (GPRA) by making significant changes and improvements to its annual budget
submission and by organizationally aligning the strategic planning and budget functions
under the Chief Financial Officer. These changes were all part of the FBI's long-term plan
to develop a resource based, results oriented strategic management system. In implementing
its plan, FBI efforts during FY 1997 were focused on developing strategic plans in the
operational areas of the FBI and establishing performance measures that accurately capture
FBI progress in meeting operational strategic goals. (See Performance Goals and
Results in the Supplemental Financial and Management Information section).
During FY 1997 the quality of financial data reported to the FBI's external budgetary
reviewing authorities was improved through automation. Actual obligations incurred and
expenses paid from the FBI's FY 1997 Salaries and Expenses appropriation must be reported
programmatically to FBI budgetary reviewing authorities in the agency's FY 1999 budget
request to the Congress. Because appropriations are provided for specific programs, e.g.,
white-collar crime, organized crime, violent crimes, etc., the FBI must report its use of
appropriated funds on a programmatic basis through the formal budget process. Many
labor-intensive, manual procedures were replaced with more efficient and accurate
processes as computer programs were written to perform a major portion of the overall
program costing process for the FY 1997 Salaries and Expenses appropriation. Actual
obligation and expense data were downloaded directly from a mainframe computer application
to a spreadsheet format, eliminating the need to rekey or reenter a large amount of data.
With this new ability, the FBI can increase the frequency of its programmatic financial
analyses and reporting to a quarterly rather than annual basis, and the methodology
developed can be expanded and applied to other areas of accounting and financial
management which require programmatic cost information.
Other efforts continued with the migration toward electronic payments within the
overall electronic commerce initiative (e.g., electronic deposit of funds into employee
accounts for official reimbursement and electronic payment of FBI commercial invoices),
on-line printing of purchase orders at headquarters and plans for on-line printing of
purchase orders in the field offices, and a home sale incentive program where employees
share in the savings to the FBI. Emphasis is also being placed on continuing the process
of reconciling financial data and improving the quality of data resident in the Financial
Management System (FMS) to facilitate the process of preparing internal and external
financial reports.
The current FMS (Geac) was implemented in 1987 using commercial software developed by
Dun & Bradstreet Software. The FMS is composed of a suite of software modules that
perform Purchasing, Accounts Payable, Budgetary Control, General Ledger, Inventory
Management, Third Party Draft, and Fixed Assets operations. These modules provide field
and Headquarters managers with timely and accurate financial information, enhance the
FBI's cash management policies by decentralizing its funds control to the field offices
via the Third Party Draft System, and directly support field operations by ensuring case
expenditures are paid in a timely manner and vendors are reimbursed as required. Another
goal is to upgrade the FBI's financial management software to ensure that the FMS is Year
2000 compliant.
In the personnel area, the FBI received clearance in October 1997 from DOJ to establish
Financial Manager and auditor positions in each of the 56 field offices. Formerly, only 17
field offices had financial manager positions, with 18 offices having authorized auditor
positions. This expansion of the Financial Manager and auditor programs will enhance
financial management and internal control over field operations to a significant degree.
Considerable effort was expended during FY 1997 toward establishing these fieldwide
positions.
Changes in Financial Statements from FY 1996 to FY 1997
FY 1997 marks the second year for which financial statements were prepared by the FBI;
therefore, certain comparisons can be made between the two financial statements.
Seized Property/Evidence. Property seized by the FBI for forfeiture is no longer
reported or disclosed in the FBI's financial statements, but rather in the statements of
the DOJ Asset Forfeiture Program. For FY 1997, only cash, financial instruments,
non-monetary valuables, and illegal drugs seized for evidentiary purposes (and not subject
to forfeiture) are reported or disclosed in the FBI's statements. (See Notes 1 and 5).
Accounts Receivable. The net of Intragovernmental Accounts Receivable reported
for FY 1997 ($100,602,000) represents a 50 percent decline from the amount reported for FY
1996 ($199,910,000). The net of Governmental Accounts Receivable reported for FY 1997
($11,481,000) represents a 30 percent decline from the amount reported for FY 1996
($16,330,000). The declines are the result of (1) the correction of amounts that were
incorrectly recorded as receivables (included in prior period adjustments) and (2)
aggressive efforts by the Accounting Section to reduce the number of outstanding
receivables.
During FY 1997 the FBI significantly expanded the use of OPAC as a mechanism for
collecting payments from other Federal agencies. For example, collections from one of the
FBI's biggest accounts, OCDETF, were made through OPAC during FY 1997. The FBI also took a
more aggressive posture with respect to collecting debts from private individuals. The
average age of receivables for both federal and public receivables decreased from FY 1996
to FY 1997, most dramatically for public receivables. The total amount of delinquent
public receivables dropped from $4.6 million in FY 1996 to $363,000 in FY 1997, a
reduction of approximately 92 percent.
Other Revenue and Financing Sources. The amount increased from $8,105,000 in FY
1996 to $190,514,000 in FY 1997, due primarily to the inclusion of imputed financing for
retirement expenses paid by OPM ($180,021,000) and claims paid on behalf of the FBI by the
Treasury Judgement Fund ($4,241,000). (See Note 1).
Property and Equipment (P&E). The reported value of P&E for FY 1997
($352,596,000) represents a 27 percent increase over the FY 1996 value ($277,966,000). The
FY 1997 increase was primarily due to capitalization of costs associated with the
construction and outfitting of the CJIS facility. (See Note 4).
Financial Trends
The FBI is participating in Treasury's FACTS 2 project, and is further expanding
efforts in the area of EFT payments. Therefore, one clear trend for the FBI is the
movement toward expanded electronic reporting and payments. It is also projected that the
FBI will continue to move in the direction of sharing financial information via
intranet/internet facilities.
In the area of electronic payments, we have been advised that DOD is piloting the use
of the OPAC system. The ability to OPAC DOD at some future date will significantly expand
the total dollar coverage of federal accounts subject to collections using OPAC.
Additionally, more and more state and local government agencies are using ACH as a payment
mechanism, which should speed up the receipt of payments from the agencies and reduce the
amount of operational effort currently required to process checks.
The FBI will also be focusing on the continued implementation of the FASAB Revenue and
Cost Accounting Standards to comply with the regulatory requirements mandated for the
standards. The FBI will also use the "new" data gleaned from the application of
these standards to enhance overall financial management, e.g., using cost accounting data
to improve financial management processes.
As previously indicated, the FBI received authority from the DOJ to establish Financial
Manager and auditor positions for each of the 56 FBI field offices. This supports the
trend of delegating authority and decision-making from FBI Headquarters to field office
managers. A corollary to this is that field offices will be more accountable for managing
their financial affairs.
Management's Assertions
FBI management asserts that it is responsible for maintaining internal accounting and
administrative controls that are adequate to ensure that transactions are executed in
accordance with budgetary and financial laws and other requirements, consistent with
purposes authorized, and are recorded in accordance with federal accounting standards;
that assets are properly safeguarded to deter fraud, waste, and abuse; and that
performance measurement information is adequately supported.
Limitations of the Financial Statements
The FBI's financial statements have been prepared to report the financial position and
results of operations of the entity, pursuant to the requirements of 31 U.S.C. 3515(b).
While the financial statements have been prepared from the books and records of the FBI
in accordance with the formats prescribed by OMB, the statements are in addition to the
financial reports used to monitor and control budgetary resources which are prepared from
the same books and records.
The statements should be read with the realization that they are for a component of the
United States Government, a sovereign entity. One implication of this is that liabilities
cannot be liquidated without legislation that provides resources to do so.
#####